Supreme Court, U.S.
FILED

no.po-wh
In the

DEC 1 7 2020
L. OFFICE OF THE CLERK

Supreme Court of the United States
Barbara Andersen
Petitioner
v.
Village of Glenview, Rick Gimbel
And Jacob Popkov
Respondents
On petition for writ of certiorari to the United States Court of Appeals to the
Seventh Circuit
PETITION FOR WRIT OF CERTIORARI

Submitted by:
Barbara Andersen,
1007 Longmeadow Lane
Western Springs, IL 60558
708-805-1123

RECEIVED
DEC 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

,?

QUESTIONS PRESENTED
The following questions of review are presented herein:
(a)

Whether the trial court properly disregarded Andersen’s Motion to

Strike relative to the Motions to Dismiss filed by the Respondents herein.
(b)

Whether the trial court properly dismissed portions of Andersen’s

Complaint against the Village of Glenview and Detective Popkov pursuant to a
Motion to Dismiss; and
(c)

Whether the trial court properly dismissed Andersen’s Complaint

pursuant to the Motion for Summary Judgment by Gimbel, the Village of Glenview
and Detective Popkov.

J

PARTIES TO THIS PROCEEDING
Petitioner, Barbara Andersen, was the plaintiff at the trial court and the
appellant before the Seventh Circuit Court of Appeals.

There is no further

applicable parent company or corporate disclosure required.
Respondents, Detective Popkov1 and Rick Gimbel, were defendants at the
trial court level and Appellees before the Seventh Circuit Court of Appeals. There
are no further applicable parent company or corporate disclosures required.

1

Andersen is not seeking certiorari against the Village of Glenview under her
Monell claims.
11

RELATED PROCEEDINGS
Barbara Andersen v. Rick Gimbel, Village of Glenview and Jacob Popkov, l:17-cv05761 (trial court proceeding granting motion to dismiss and motion for summary
judgment and related motions) (final judgment entered September 9, 2019)

Barbara Andersen v. Rick Gimbel, Village of Glenview and Jacob Popkov, 19-2738
(Seventh Circuit affirming rulings of the trial court)(judgment entered July 21,
2020)

iii

f.

*

TABLE OF CONTENT
QUESTIONS PRESENTED

1

PARTIES TO THIS PROCEEDING

11

RELATED PROCEEDINGS

in

TABLE OF AUTHORISES

IX

TABLE OF AUTHORITIES: CONSTITUTIONAL PROVISIONS AND
STATUTES..................................................................................................

xm

CITATION OF OPINIONS

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND STATUTES

2

STATEMENT

4

REASONS FOR GRANTING THE PETITION

8

I.

8

The Lower Courts Erred in Their Motion to Dismiss Rulings
A.

Appellate Standard of Review of the Trial Court’s Dismissal
Pursuant to a Motion to Dismiss...... .......................................

9

B.

General Standard Relative to Rule 12(B)(6)Motion

9

C.

The Court Erred in Denying Andersen’s Motion to Strike
the Audio Tapes and Video-Tape Relative to the Motion to
Dismiss
12

D.

The Seventh Circuit Glossed Over the Motion to Strike
in Its Ruling.......................................................................

E.

14

The Trial Court Erred in Dismissing Andersen’s Section 1983
False Arrest Claim Against Popkov (Count VI) and Conspiracy
to Falsely Arrest Claim Against Popkov and Gimbel (Count
VII)
16

IV

1
i

1.

2.

rv.

A Motion to Dismiss Relative to Probable Cause
Was Procedurally Improper.................................

16

There Was No Probable Cause For Arresting Andersen
Relative to Section 1983 False Arrest Claim Against
Popkov (Count VI); Conspiracy to False Arrest Against
Popkov and Gimbel (Count VII) State Malicious
Prosecution Claim (VIII) and Conspiracy to
Maliciously Prosecute Against Popkov and
Gimbel (Count X)).............................................................. 17

F.

The Seventh Circuit Erred in Affirming Probable Cause When
There Were Question of Fact as to the Reasonableness of Same,
21
With or Without Considering the Audio Tapes

G.

The Lower Courts Erred in Dismissing Andersen’s
Constitutional Claims Relative to Her Constitutional Claim for
Familial Relations Against Popkov (Count III) and Conspiracy
against Gimbel (Count IV)
23

H.

The Lower Courts Erred in Finding That the Grand Jury
Indictment Further Defeated Andersen’s State Malicious
Prosecution Claims Count VIII) and conspiracy
against Gimbel (Count X).....................................................

The Trial Court Erred in Granting Popkov and Gimbel’s
Motion for Summary Judgment.........................................

27

32

A.

Standard of Review of the Trial Court’s Dismissal Pursuant to a
Motions for Summary Judgment
32

B.

Defendants’ Credibility is in Question in these Proceedings.... 33

C.

Judge Tharp Does Not Disregard The Audio Tapes

33

D.

Judge Tharp’s Ignores His Prior Conclusions Relative to the
IIED Claim Against Gimbel (Count II)...................................

34

E.

The Timing of the Arrest Relative to the Football Game.......

37

F.

Popkov’s Change in Justification

38

v

t
t

CONCLUSION

.40

APPENDIX A- APPELLATE COURT OPINION

A1

APPENDIX B -TRIAL COURT RULING RELATIVE TO MOTION TO
DISMISS.......................................................................................................

A6

APPENDIX C- TRIAL COURT RULING RELATIVE TO MOTION FOR
SUMMARY JUDGMENT............................................................................... A15

vi

*
*

TABLE OF AUTHORITIES
Alexander v. U.S., 721 F.3d 418 (7th Cir. (Ind.) 2013)

11

Al Matar v. Borchardt, 2017 WL 2214993 (N.D.I11. 2017)
Andersen v. Vill. of Glenview, 821 F. App'x 625 (7th Cir. 2020)

11
15, 22, 26

Beauchamp v. City of Noblesville Indiana,
320 F.3d 733 (7th Cir. 2003).............

19

Beaman v, Souk, 2011 WL 832506 (C.D.I11. 2011)

35

Brokaw v. Mercer Cnty, 235 F.3d 1000 (7th Cir. 2000)

17, 23, 26

Bullock v. Dioguardi, 1990 WL 19527 (N.D.I11. 1990)

37

Camasta v. Jos. A. Bank Clothiers, Inc., 761 F.3d 732 (7th Cir. 2014)
Catinella v. Cnty. of Cook, III., 881 F.3d 514 (7th Cir. 2018)
Chelios v. Heavener, 520 F.3d 678 (7th Cir 2008)
Colbert v. City of Chicago, 851 F.3d 649 (7th Cir. 2017)
Conditioned Ocular Enhancement v. Bonaventura,
458 F. Supp. 2d 704 (N.D.I11. 2006)..............
Con-Way Cent Exp. Inc. v. Fujisawa U.S.A., Inc.,
1992 WL 1992 WL 168553 (N.D.I11. 1992).

9
10
17

27,31, 32

11

13-14

County of Riverside v. McLaughlin, 500 U.S. 44 (1991)

14

Doermer v. Callen, 847 F.3d 522 (7th Cir. 2017)

9

Ewing v. O’Brien, 60 F.Supp.2d 813 (N.D.I11. 1999)
Fabiano v. City of Palos Hills, 336 Ill.App.3d 635,
784 N.E.2d 258 (Ill.App. 2003).....................

Vll

30

30

f

i

Feltmeier v. Feltmeier, 207 I11.2d 263, 798 N.E.2d 75 (Ill. 2003)

35

Franks v. MGM Oil, Inc., 2010 WL 3613983 (N.D. 2010)

13

Fulkerson v. Tompkins State Bank, 2012 WL 4520251 (C.D.I11. 2012)

33

Gardunio v. Town of Cicero,
674 F.Supp.2d 976 (N.D.I11. 2009)

11, 14, 16, 18

Gonzalez v. City of Elgin, 578 F.3d 526 (7th Cir. 2009)

17

Gregory v. City of Evanston, 2006 WL 3718044 (N.D.Ill. 2006)

23

Gupta v. Owens, 2014 WL 1031471 (N.D.I11. 2014)

11, 16

Gvozden v. Mill Run Tours, Inc., 2011 WL 1118704 (N.D.I11 2011)

11

Hernandez v. Foster, 657 F3d 463 (7th Cir. 2011)

23

Huerta v. Village of Carol Stream, 2009 WL 2747279 (N.D.Ill. 2009)

11

Jiang v. Levette, 2015 WL 9480478 (E.D. Mo. 2015)

35

Johnson v. City of Shelby, 574 U.S. 10 (2014)

11

Jones v. City of Chicago, 856 F.2d 985 (7th Cir. 1988)

25, 28, 30

Leatherman v. Tarrant County Narcotics Intelligence
and Coordination Unit, 507 U.S. 163 (1993)....

11

Meerbrey v. Marshall Field and Co, 139 Ill.2d 455,
564 N.E.2d 1222 (Ill. 1990)..............................

16

Myvett v. Chicago Police Detective Edward Heerdt,
232 F.Supp.3d 1005 (N.D.I11. 2017)................

17, 20

Neiman v. Keane, 232 F.3d 577 (7th Cir. 2000)

viii

20

*1

Oakland Police and Fire Retirement System v. Mayer Brown LLP,
861 F.3d 644 (7* Cir. 2017).....................................................

10

Parish v. City of Elkhart, 614 F.3d 677 (7th Cir. 2010 (Ind.)

35

Paz v. Wauconda Healthcare, 464 F.3d 659 (7th Cir. 2006)

.....33

Peregrine Options v. Farley, Inc.,
1993 WL 489739 (N.D.I11. 1993)

14

Pirelli Armstrong Tire Corp. Retiree Med. Benefits Tr. V. Walgreen Co.,
631 F3d 436 (7th Cir. 2011)...............................................................

23

Reid v. Unilever U.S., Inc., 964 F. Supp. 2d 893 (N.D. Ill. 2013)

10

Reynolds v. Jamison, 488 F.3d 756 (7th Cir. 2007)
Rising-Moon v. Wilson, 2005 U.S. Dist. LEXIS 13955 (S.D.Ind. 2005)
Roake v. Forest Preserve Dist. of Cook Cnty.,
849 F.3d 342 (7th Cir. 2017)...............
Rusinowski v. Village of Hinsdale, 835 F.Fupp.2d 641 (N.D.Ill. 2011)

17-18
32

9
17

Simpson v. Nickel, 450 F.3rd 303 (7th Cir. 2006)

11

Southern United States Trade Association v. Unidentified Parties,
2012 WL 579439 (E.D.La. 2012)..............................................

32

Spearman v. Elizondo, 230 F.Supp.3d 888 (N.D.Ill. 2016)

11

Traffic Tech, Inc. v. Jared Kreiter and Total Transportation,
2016 WL 4011229 (N.D.I11. 2016)..................................

13

Troxel v. Granville, 530 U.S. 57 (2000)

23

United States ex rel Bogina v. Medline Indus. Inc.,
809 F.3d 365 (9th Cir. 2016)...........................

23

IX

A

Wallis v. Spencer, 202 F.3d 1126, 1137 (9th Cir. 2000)

23

Wardell v. City of Chicago, 75 F.Supp.2d 851 (N.D. 2009)

11

Ware v. Lake County Sheriffs Office,
2017 WL 914755 (N.D.I11. 2017)

10

Washington u. Haupert, 481 F.3d 543 (7th Cir. 2007)

32

Widmar v. Sun Chemical Corp.,
2012 WL 1378657 (N.D.I11. 2012)

14

TABLE OF AUTHORITIES. CONSTITUTIONAL PROVISIONS AND
STATUTES
Fed.R.Civ.P 8(a)

8-32

Fed.R.Civ.P. 9(b)

8-32

Fed.R.Civ.P 12(b)(6)

8-32

Fed.R.Civ.P 12(d)

12-13

Fed.R.Civ.P 56(c)

32-end

42 U.S.C. §1983

passim

720 ILCS 5/26.5-2

17

720 ILCS 5/26.5-0.1

19

720 ILCS 5/26.5-5

17

720 ILCS 5/12-7.3

17, 19

x

i

i

OPINIONS BELOW
The opinion of the Seventh Circuit is reported at Andersen v. Vill. of Glenview, 821
F. App'x 625 (7th Cir. 2020). The opinion of the trial court granting the motion to
dismiss is reported at Andersen v. Vill. of Glenview, No. 17-CV-05761, 2018 U.S.
Dist. LEXIS 201642, at *1 (N.D. Ill. Nov. 28, 2018) . The opinion of the trial court
granting the motion for summary judgment is reported at Andersen v. Vill. of
Glenview, No. 17 CV 05761, 2019 U.S. Dist. LEXIS 152890, at *1 (N.D. Ill. Sep. 9,
2019)
JURISDICTION
The ruling by the Seventh Circuit was entered on July 21, 2020; Andersen is filing
this petition by U.S. Mail on December 16, 2020 (within 150 days of the Seventh
Circuit ruling in compliance with the Covid 150 filing deadline). The jurisdiction of
this Court is evoked pursuant 28 U.S.C. § 1254 to review the final judgment of the
Seventh District Court of Appeal.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
720 ILCS 5/26.5-0.1
"Harass" or "harassing" means knowing conduct which is not necessary to
accomplish a purpose that is reasonable under the circumstances, that would cause
a reasonable person emotional distress and does cause emotional distress to
another.
720 ILCS 5/26.5-2 Harassment by telephone.
(a) A person commits harassment by telephone when he or she uses telephone
communication for any of the following purposes:
(2) Making a telephone call, whether or not
conversation ensues, with intent to abuse, threaten or harass any person at the
called number;

720 ILCS 5/26.5-5- Sentence
(a) Except as provided in subsection (b), a person who violates any of the provisions
of
Section 26.5-1, 26.5-2, or 26.5-3 of this Article is guilty of a Class B misdemeanor.
Except as provided in subsection (b), a second or subsequent violation of Section 26.51, 26.5-2, or 26.5-3 of this Article is a Class A misdemeanor, for which the court shall
impose a minimum of 14 days in jail or, if public or community service is established
in the county in which the offender was convicted, 240 hours of public or community
service.
(b) In any of the following circumstances, a person who violates Section 26.5-1, 26.52, or 26.5-3 of this Article shall be guilty of a Class 4 felony: ...
(4) In the course of the offense, the offender threatened to kill the victim or any
member of the victim’s family or household.

2

V'

;

720 ILCS 5/12-7.3 - Stalking
(a) A person commits stalking when he or she knowingly engages in a course of
conduct directed at a specific person, and he or she knows or should know that this
course of conduct would cause a reasonable person to:
(1) fear for his or her safety or the safety of a third person; or
(2) suffer other emotional distress.
(c) Definitions. For purposes of this Section:
(3) "Emotional distress" means significant mental suffering, anxiety or alarm.
(8) "Reasonable person" means a person in the victim’s situation.
42 U.S.C. §1983
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District Of Columbia.

3

i

STATEMENT
This appeal relates to the dismissal of Barbara Andersen’s case in the
Northern District of Illinois and affirmation by the Seventh Circuit Court of
Appeals. Andersen filed suit in the Northern District following the dismissal of
criminal charges sought by her ex-husband, Rick Gimbel, against Andersen her for
purported stalking and felony telephone harassment.

Andersen filed claims

against Rick Gimbel (“Gimbel”) and Detective Popkov (“Popkov”) relative to their
wrongful conduct surrounding the arrest and two year prosecution.

Claims

included Section 1983 claims and Illinois state-based tort claims (i.e. intentional
infliction of emotional distress, malicious prosecution, etc.)
Here, prior to being arrested, Andersen made multiple efforts to have her exhusband, Gimbel, stop contacting her. She blocked him on phone, e-mail, text, and
demanded communication by U.S. Mail only as to any matters relative to her minor
children. This was due to the fact that (a) Andersen had experienced Gimbel trying
to set-up false charges against Andersen in the past so as to use same in an effort to
gain further custody rights in Andersen’s minor children and to take vengeance on
Andersen for asking for a divorce years prior; (b) had been a victim of his post­
divorce harassment for years; (c) knew that (as he had done in the past) use his
contacts as an emergency room with the Glenview Police Department to harass
Andersen (because of his connections with them) in lieu of going to the domestic
relations judge (where Gimbel had no influence); and (d) was a great actor in
playing the fake victim. Effectively, what Gimbel would do was harass Andersen in

4

4'

a variety of fashions and then wait for an explosion. In 2015, after being blocked as
above, he decided to harass Andersen’s minor son in order to provoke Andersen with
his finger on the record button. Now, five years later, Andersen still waits for
justice for being the victim of expensive litigation in two forums (criminal and
domestic relations; costs (i.e. expert fees/children attorneys’ fees); emotional distress
of five years of litigation; and lost business opportunity in dealing with five years of
harassment and constant litigation (still ongoing in domestic relations) thanks to
the fallacious charges.
Indeed, prior to being arrested for the absurd criminal charges, Andersen had
filed three complaints against Gimbel with the Glenview Police Department and,
further, had filed motions in her custody case requesting that one of the two (or
both) direct Gimbel to leave Andersen and her minor children alone. Yet, instead of
Gimbel being charged with stalking/harassment, Andersen was. It was absurd.
Despite the statements of the lower courts herein, this was not a contentious
divorce at the beginning.

Rather, Andersen waived child support and alimony;

drafted/entered (as a litigation attorney) a joint and simple divorce; agreed to joint
custody; and had de minimis contact with Gimbel.

Andersen wanted nothing to do

with Gimbel and did the above to accomplish that objective. Andersen does not
appreciate the characterizations of the trial court and the Seventh Circuit as to the
divorce and/or the parties.

This was intended to be a simple divorce... with one

objective.... to get rid of Gimbel even if that meant waiving substantial financial

5

f
;

matters. Obviously, no good deed goes unpunished as is evidenced by the fact that
Andersen is here and is still being harassed in domestic relations court.
Amazingly, Andersen cannot get a trial as to her claims against Gimbel and
Popkov.

What the trial court and Seventh Circuit did was basically take self-

serving arguments/affidavits by the Respondents, accepted contested evidence, and
ignore Andersen’s counter-affidavits. And they did so even though Andersen (a)
they knew that the trial court in the criminal case threw out the charges at trial
based on the lack of credibility of Gimbel/Detective Popkov; (b) that Detective
Popkov had perjured himself at the criminal trial... and it was so bad that trial had
to be adjourned so that Andersen could order the transcript; (c) there was obvious
coaching by the Village of Glenview attorneys in the criminal trial despite an order
by the criminal judge that they were to not communicate with their clients during
trial;2 and (d) there was clear evidence (including expert testimony) of evidence
tampering/destruction of evidence by Gimbel, a clear violation of a preservation
order entered by the criminal court; and (e) Andersen contested the authenticity of
the audio files that the Respondents tendered with their motions (and certainly
never conceded were authentic as required by the rules of civil procedure).
Indeed, how is it that the lower courts herein dismissed the charges knowing:
that there were allegations/testimony of perjury by Gimbel/Popkov?

Why did the

These are the same attorneys who represent the Village of Glenview and
Popkov here. Despite not being the State, they were retained before the criminal
matter was even concluded. Andersen has asserted and maintains herein that they
did so because they knew that they had falsely arrested Andersen and were
coaching their clients in offering testimony to assist the prosecution and to be
adversarial to Andersen.
2

6

lower courts not conclude that Andersen was not entitled to a trial; that there were
questions of credibility and material fact which should have precluded dispositive
motions from being granted; and wholly ignore Andersen’s counter arguments and
affidavits?

This was particularly inappropriate given that they knew that the

criminal court had thrown out the criminal charges at trial (which were reduced
from three felony charges to one misdemeanor by this point in time) without
Andersen having any need to put on a defense at trial; the criminal court did so
based on the lack of credibility of Gimbel/Popkov.

Why would the lower courts

herein give credibility to self-serving affidavits of Respondents when the criminal
court, after hearing the full testimony for itself and observing their demeanors,
effectively found Gimbel/Popkov are perjurers and manipulators?
This was not justice. This was shameful railroading by highly paid counsel
funded by two sets of insurance carriers representing the Respondents and offering
more perjured testimony in an effort to escape civil liability. Andersen asks that
this Court reverse and remand this matter to the trial court so that she can actually
have a substantive trial based on the credibility of witnesses and a full hearing of
contested issues of fact relative to evidence/fact.

7

f
:

REASONS FOR GRANTING CERTIORARI
Here, Andersen asserts that it was clear that there were disputed, material
question relative to evidence and testimony which should have resulted in: (a) a
denial of self-serving motion practice by Respondents and (b) a trial on the merits.
Andersen asserts herein that the lower courts did not follow the applicable
procedural rules and precedent which should have resulted in a denial of the motion
practice by Respondents. Specifically, Andersen believes that the trial court: (a)
wrongfully denied Andersen’s motion to strike contested audio files at the motion to
dismiss stage that were not only not “concededly authentic”, but were challenged by
expert testimony; (b) wrongfully granted partial judgment at the motion to dismiss
stage to the Village of Glenview and Popkov; and (c) wrongfully granted judgment
as to the balance of the claims at the summary judgment stage.

Indeed,

particularly egregious from the perspective of Andersen, is that the lower courts
even dismissed the intentional infliction of emotional distress claim against Gimbel
who had engaged in a multi-year harassment campaign against Andersen (and her
minor children)...in both criminal court and in domestic relations court under his
fake victim routine.
The legal points that Andersen asks this Court to consider in her request for
reversal as as follows:
I.

The Lower Courts Erred in Their Motion to Dismiss Rulings
This section of the argument challenges the dismissal of claims against

Popkov and Gimbel pursuant to Rule 12(b)(6).

Fed.R.Civ.P. 12(b)(6).

First,

Andersen challenges Judge Tharp’s denial of Andersen’s motion to strike evidence
8

i

(namely an audio tape a videotape of the interrogation interview) relative to this
motion.

Second, Andersen challenges the dismissal of Andersen’s False Arrest

claims against Popkov (Count VI) and Conspiracy to Falsely Arrest against Gimbel
(Count VII). Third, Andersen challenges the dismissal of her Constitutional Right
to Familial Relations against Popkov (Count III) and Conspiracy against Gimbel
(Count IV). Fourth, Andersen challenges the dismissal of her Illinois claims for
malicious prosecution against Popkov (Count VIII) and conspiracy against Gimbel
(Count X).
A.

Appellate Standard of Review of the Trial Court’s Dismissal
Pursuant to a Motion to Dismiss

Given that the Complaint was partially stricken pursuant to a Rule 12(b)(6)
motion relative to the sufficiency of the pleadings, the trial Court’s dismissal is
subject to de novo review. Camasta v. Jos. A. Bank Clothiers, Inc., 761 F.3d 732, 736
(7th Cir. 2014); Doermer v. Callen, 847 F.3d 522, 527 (7th Cir. 2017).
B.

General Standard Relative to Rule 12(B)(6) Motions

“A motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6)
challenges the viability of a complaint by arguing that it fails to state a claim upon
which relief may be granted.” Camasta, 761 F.3d at 736; see also Roake v. Forest
Preserve Dist. of Cook Cnty., 849 F.3d 342, 345-46 (7th Cir. 2017). Under Rule
12(b)(6), Andersen was required to plead the following:
To survive a Rule 12(b)(6) motion, a complaint must ‘state a claim to
relief that is plausible on its face.’ A complaint satisfies this standard
when its factual allegations ‘raise a right to relief above the speculative
level.’ ...’[T]he complaint taken as a whole must establish a
nonnegligible probability that the claim is valid, though it need not be

9

so great a probability as such terms as ‘preponderance of the evidence’
connote... ‘[P] lain tiff must give enough details about the subjectmatter of the case to present a story that holds together.’...When
deciding a motion to dismiss under Rule 12(b)(6), the court takes all
facts alleged by the plaintiff as true and draws all reasonable
inferences from those facts in the plaintiffs favor, although conclusory
allegations that merely recite the elements of a claim are not entitled
to this presumption of truth.
Ware v. Lake County Sheriffs Office, 2017 WL 914755, *1 (N.D.I11. 2017)(internal
citations omitted); Oakland Police and Fire Retirement System v. Mayer Brown
LLP, 861 F.3d 644, 649 (7th Cir. 2017) (“A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged. To rise above the
‘speculative level’ of plausibility, the complaint must make more than ‘[t]hreadbare
recitals of the elements of a cause of action, supported by mere conclusory
statements.’ The plausibility requirement, however, ‘does not impose a probability
requirement,’ and the claims may proceed even if they seem unlikely to
succeed.”)(internal citations omitted). “In other words, the court will ask itself could
these things have happened, not did they happen.” Reid v. Unilever U.S., Inc., 964
F. Supp. 2d 893, 905 (N.D. Ill. 2013); see also Catinella v. Cnty. of Cook, III., 881
F.3d 514, 517 (7th Cir. 2018)(citation omitted). “Plausibility in this context does not
imply that a court ‘should decide whose version to believe, or which version is more
likely than not.’” Reid,, 964 F. Supp. 2d at 905(internal citations omitted).
In this regard, the Courts have further articulated:
A motion to dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6) tests the sufficiency of the complaint, not the merits of the
case. To survive a Rule 12(b)(6) motion to dismiss, the complaint first
10

;

must comply with Rule 8(a) by providing “a short and plain statement
of the claim showing that the pleader is entitled to relief’ (Fed.R.Civ.P.
8(a)(2)), such that the defendant is given “fair notice of what the H= * *
claim is and the grounds upon which it rests.” Second, the factual
allegations in the complaint must be sufficient to raise the possibility
of relief above the “speculative level,” assuming that all of the
allegations in the complaint are true. ‘[0]nce a claim has been stated
adequately, it may be supported by showing any set of facts consistent
with the allegations in the complaint.’ The Court accepts as true all of
the well-pleaded facts alleged by the plaintiff and all reasonable
inferences that can be drawn therefrom.
Gvozden v. Mill Run Tours, Inc., 2011 WL 1118704, *2 (N.D.I11 2011)(internal
citations omitted); Spearman v. Elizondo, 230 F.Supp.3d 888, 891-892 (N.D.I11.
2016); Gupta v. Owens, 2014 WL 1031471, *2 (N.D.I11. 2014); Huerta v. Village of
Carol Stream, 2009 WL 2747279, *1 (N.D.I11. 2009); Gardunio v. Town of Cicero,
674 F.Supp.2d 976, 983 (N.D.I11. 2009); Wardell v. City of Chicago, 75 F.Supp.2d
851, 854 (N.D. 2009); Al Matar v. Borchardt, 2017 WL 2214993, *3 (N.D.I11. 2017);
see also Alexander v. U.S., 721 F.3d 418, 422 (7th Cir. (Ind.) 2013).
A motion to dismiss is only appropriate if “no relief could be granted under
any set of facts that could be proved consistent with the allegations”; Conditioned
Ocular Enhancement v. Bonaventura, 458 F. Supp. 2d 704, 707 (N.D.Ill. 2006).
Further, the Court must construe all well-plead facts in favor of the nonmoving
party. Roake, 849 F.3d at 345.
There is no heightened Rule 9(b) pleading standard for Section 1983 claims.
Leatherman v. Tarrant County Narcotics Intelligence and Coordination Unit, 507
U.S. 163, 167 (1993); Johnson u. City of Shelby, 574 U.S. 10, 11 (2014)(finding
heightened pleading inapplicable to Section 1983 claims); Simpson u. Nickel, 450

11

F.3rd 303, 306 (7th Cir. 2006)(“[T]here are no heightened pleading requirements for
suits under that statute [Section 1983]. Facts need not be “established” or even
alleged (fact-pleading is unnecessary); a plaintiff receives the benefit of any fact
that

could

be

established

later

consistent

with

the

complaint’s

allegations.”)(internal citations omitted).
C.

The Trial Court Erred in Denying Andersen’s Motion to Strike
the Audio Tapes and Video-Tape Relative to the Motion to
Dismiss
At the summary judgment stage, in response to Andersen’s second motion to
strike various statements and evidence attached to the Rule 56.1 Statement, Judge
Tharp denied the motion as moot on the basis that he did not review same.
However, at the prior motion to dismiss, Judge Tharp had denied Andersen’s
motion to strike and, further, relied on the contents of the audio tapes in his ruling.
Andersen contends that this was improper under F.R.Civ.P 12(d).
First, the Complaint alleges that Gimbel purposefully destroyed text
messages between Gimbel and Andersen’s minor son despite a preservation order.
Second, the Complaint alleges that Gimbel also collected, handled and altered the
audio files. Third, in the Motion to Strike, Andersen advised the trial court that
Andersen had retained both during the criminal trial and herein forensic expert,
Jerry Saperstein. Andersen explained that the audio tapes were “highly contested”
and, further, that Jerry Saperstein had already provided testimony that
demonstrated that: (a) the Glenview Police Department allowed Rick Gimbel to
collect/handle the audio files, including his own and those tendered by third parties,
before they were tendered to the police; (b) that the original audio files were all
12

destroyed and, therefore, impossible for any forensic expert to properly review for
authentication purposes; and (c) that Rick Gimbel had altered the audio files prior
to tendering same to the Glenview Police Department. Andersen further explained
that the Sotos Law Firm would have been aware of this testimony based on the fact
that they sat in on the trial. When Andersen re-argued this issue at the motion for
summary judgment, Andersen attached a copy of Jerry Saperstein’s report and trial
testimony. The testimony of Saperstein clearly supported Andersen’s position that
Gimbel tampered with exculpatory defense evidence in his effort to have Andersen
convicted based on his fabricated criminal charges.
Andersen also objected to the audio tapes and Motion to Dismiss on the basis
that they were improper at the Motion to Dismiss stage, i.e. a stage that should be
only assessed based on the allegations of the Complaint and under Rule 8(a).
Andersen noted in her Motion to Strike that the Motions to Dismiss were improper
given that they argued facts outside of the pleading and, as such, was effectively a
Motion for Summary Judgment. Andersen objected in that there was no effort by
the Glenview/Popkov to: (a) convert the motion into a Motion for Summary
Judgment and/or (b) to properly authenticate the audio files in a Rule 56.1
Statement and, further, no opportunity for Andersen to respond to same. F.R.Civ.P
12(d)(noting that such a motion should either strike exhibits or should convert the
motion to a motion for summary judgment when extrinsic evidence is offered);
Traffic Tech, Inc. v. Jared Kreiter and Total Transportation, 2016 WL 4011229, *2
(N.D.I11. 2016); Franks v. MGM Oil, Inc., 2010 WL 3613983, *2-3 (N.D. 2010); Con-

13

Way Cent Exp. Inc. v. Fujisawa U.S.A., Inc., 1992 WL 1992 WL 168553, *3-4
(N.D.I11. 1992)(noting that the court was limited to only considering the complaint
itself in a motion to dismiss); Widmar v. Sun Chemical Corp., 2012 WL 1378657, *4
(N.D.I11. 2012); Peregrine Options v. Farley, Inc., 1993 WL 489739, Fn. 2 (N.D.I11.
1993).

Andersen also argued that the audio tapes did not fall within any of the

“narrow” Rule 12(b)(6) exceptions to attaching exhibits to a Rule 12(b)(6) motion
and were certainly not “concededly authentic”. Franks, 2010 WL 3613983 at *2-3;
Con-Way Cent Exp Inc., 1992 WL 168553 at 4; Gardunio, 674 F.Supp.2d at 983.
In sum, it was error for Judge Tharp (a) to consider the contested audio tapes
at the Motion to Dismiss stage; (b) to effectively consider the Motion to Dismiss as a
Motion for Summary Judgment without any motion to convert filed; (c) to consider
the audio files without compliance with Rule 56.1, including an affidavit
establishing authenticity of the audio files; (d) to ignore Andersen’s objections that
the audio files were not “concededly” authentic, but rather were tampered with by
Gimbel (as were the text messages to Andersen’s minor son); and (e) to deprive
Andersen of the opportunity to respond to a Rule 56.1 Statement and the report of
Jerry Saperstein to show the clear evidence of evidence tampering.
Likewise, at this stage of the litigation, Andersen certainly objected to any
purported video recording of herself from her interrogation at the Glenview Police
Station. Again, Andersen repeats her procedural arguments from above. Further,
at this early stage of the litigation, Andersen certainly had not had the opportunity
for her expert to review the recording for authenticity and/or completeness.

14

In sum, it was error for Judge Tharp to deny Andersen’s Motion to Strike
and, further, to consider this contested evidence relative to the Motions to Dismiss
generally and, specifically, relative to the issues of Andersen’s Section 1983 False
Arrest Claim and the issue of probable cause.
D.

The Seventh Circuit Glossed Over the Motion to Strike in Its
Ruling

When Andersen re-raised the issue to the Seventh Circuit they opined as
follows:
Ordinarily, district courts are confined to the pleadings on such a
motion, but courts may consider outside exhibits that are central to the
plaintiffs claim and referred to in the complaint, even if supplied by
the defendants. See Venture Assocs. Corp. v. Zenith Data Sys. Corp.,
987 F.2d 429, 431 (7th Cir. 1993). Those were the grounds that the
court found to apply here, having concluded that the recordings were
central to Andersen's claims and there was no dispute about their
authenticity.3
Andersen v. Vill. of Glenview, 821 F. App'x 625, 627-628 (7th Cir. 2020). First, the
Seventh Circuit erred in opining that “there was no dispute about their
authenticity”. Here, not only did Andersen maintain that the audio tapes were not
“concededly” authentic, she argued that she had an expert to establish that they
were tampered with. Thus, the Seventh Circuit improperly glossed over Andersen’s
Motion to Strike. There is no question that the lower courts: (a) should not have
accepted the audio tapes attached to the motion to dismiss as they did and/or (b)
listen to the audio tapes as they did.

The Respondents clearly and knowingly

3

Andersen will address the comment by the Seventh Circuit “but the court
took care to point out that even without taking into account the content of the
recordings, the complaint's allegations failed to show a lack of probable cause” infra.

15

tendered tampered evidence to prejudice the lower courts.

The lower courts

accepted same in violation of basic rules of procedure and, quite frankly, without
using common sense.
E.

The Trial Court Erred in Dismissing Andersen’s Section 1983
False Arrest Claim Against Popkov (Count VI)4 and Conspiracy
to Falsely Arrest Claim Against Popkov and Gimbel (Count VII)

The Northern District recognizes that an arrest without probable cause is an
unreasonable seizure prohibited by the Fourth Amendment. Gardunio, 674
F.Supp.2d at 984. Probable cause exists “when ‘the facts and circumstances within
their knowledge and of which they [have] reasonably trustworthy information [are]
sufficient to warrant a prudent [person] in believing that the [suspect] had
committed or was committing an offense.” Id at 984-985. To make this
determination, the trial court “steps into the shoes of a reasonable person in the
position of the officer’”. Id. The probable cause inquiry is objective in nature;
however, facts within the officer’s knowledge are also to be considered. Id; Gupta,
2014 WL 1031471 at *3.
A Motion to Dismiss Relative to Probable Cause Was
Procedurally Improper
A motion to dismiss based on probable cause is typically procedurally
1.

improper. Meerbrey v. Marshall Field and Co, 139 I11.2d 455, 475, 564 N.E.2d 1222,
1231-32 (Ill. 1990). Indeed, given that facts relative to probable cause relative to
Section 1983 false arrest claims often involve questions of fact, it is usually a matter
is left for the jury. Gonzalez v. City of Elgin, 578 F.3d 526 (7th Cir. 2009); Chelios v.
4

Andersen did not appealing the dismissal of Count V, the Illinois state based
false arrest claim.
16

i

Heavener, 520 F.3d 678, 686-688 (7th Cir 2008); Brokaw v. Mercer Cnty, 235 F.3d
1000, 1017 (7th Cir. 2000); Gupta, 2014 WL 1031471 at *3; Myvett v. Chicago Police
Detective Edward Heerdt, 232 F.Supp.3d 1005, 1025 (N.D.I11. 2017); Rusinowski v.
Village of Hinsdale, 835 F.Fupp.2d 641, 649-650 (N.D.I11. 2011).
2.

There Was No Probable Cause For Arresting Andersen
(Relative to Section 1983 False Arrest Claim Against
Popkov (Count VI): Conspiracy to False Arrest Against
Popkov and Gimbel (Count VII) State Malicious
Prosecution Claim (VIII) and Conspiracy to Maliciously
Prosecute Against Popkov and Gimbel (Count X))

Here, Popkov does not challenge that he had probable cause for stalking, i.e.
the only charge that Andersen was charged with at the time of her arrest and the
contained within the criminal complaint. 720 ILCS 5/12-7.3. Likewise, there is no
genuine dispute that Andersen was not charged with felony telephone harassment
with intent to kill until the indictment stage. 720 ILCS 5/26.5-2; 720 ILCS 5/26.5-5.
Finally, at this point in time, there is no genuine dispute that no one had any good
faith basis to charge Andersen with any felony charge.
Notwithstanding the above, Judge Tharp nevertheless found that it was
sufficient to only secure probable cause for the reduced, misdemeanor charge of
telephone harassment that ultimately went to trial.

Further, Judge Tharp found

that Popkov’s interviews of third parties and Gimbel supported probable cause.
Judge Tharp then relies on this Court’s decision Reynolds v. Jamison, 488 F.3d 756,
761 (7th Cir. 2007) for the conclusion that he could rule on the issue of probable
cause at the Motion to Dismiss stage.
There are several problems with Judge Tharp’s opinion. First, this was a
17

motion to dismiss; the Reynolds decision involved a motion for summary judgment.
Reynolds, 488 F.3d at 756. As such, it was improper for Judge Tharp to ignore what
stage of the litigation and, further, the fact that such conclusions could be reached
without sworn testimony. See cases cited supra. Indeed, Andersen certainly does
not concede in her Complaint that there was probable cause relative to any
charge... felony or misdemeanor.
Second, as noted above, Judge Tharp’s review of audio files are challenged.
See case cited supra.

Third, had this motion been presented as a Motion for

Summary Judgment, Andersen would have challenged the relevancy of any witness
interviews given that they were not relevant to the charge of telephone
harassment5.

Here, as discussed in the criminal court, Gimbel was the sole,

putative claimant/victim relative to the telephone harassment charge. Fourth, had
the issue of probable cause been properly presented as a factual issue at trial,
Andersen would have factually challenged the purported “witness” accounts relative
to this charge; notably, none of these purported third party “witnesses” came to the
criminal trial.
Fifth, Judge Tharp ignores the fact that part of the probable cause analysis
requires putting oneself in the shoes of Popkov and, in doing so, considering the
knowledge of Popkov at the time of the arrest. Gardunio, 674 F.Supp.2d at 984;
Gupta, 2014 WL 1031471 at *3.

In this regard, even accepting Judge Tharp’s

5

Judge Tharp appears to have reached this conclusion outside of the
allegations of the Complaint. However, this conclusion is not supported by the
criminal court record.
18

opinion arguendo that Popkov was only required to have probable cause relative to
the misdemeanor charge of harassment, a factual dispute as to Popkov’s
reasonableness nevertheless remains.
Turning to the misdemeanor charge of telephone harassment, Popkov was
required to determine whether Gimbel was “harassed” as defined by the statute.
This was a necessary element of the charge.

720 ILCS 5/26.5-0.1 (“ ‘Harass’ or

‘harassing’ means knowing conduct which is not necessary to accomplish a purpose
that is reasonable under the circumstances, that would cause a reasonable person
emotional distress and does cause emotional distress to another.”). Because the
definition of “harass” requires that Gimbel suffer from emotional distress, Popkov
must establish probable cause relative to this factor6.

Beauchamp v. City of

Noblesville Indiana, 320 F.3d 733, 745-746 (7th Cir. 2003)(requiring probable cause
be established on “every element of a crime”).
Yet again, the Complaint certainly does not concede that Gimbel suffered
from emotional distress; so again, why did Judge Tharp consider this issue
pursuant to a Motion to Dismiss?

Indeed, the Complaint clearly alleges that

Andersen told Popkov that the charges were a ploy for custody; that Gimbel was not
a victim; that Andersen had filed multiple complaints both with the Glenview Police
Department and in domestic relations division relative to his harassment of

6

A stalking charge also contained “emotional distress” as a necessary element
of the charge. 720 ILCS 5/12-7.3(a)(2). Further, this felony charge required proving
significant emotional distress, and 720 ILCS 5/12-7.3 (c) ("Emotional distress"
means significant mental suffering, anxiety or alarm.”)(emphasis added).

19

Andersen and his attempt to set Andersen up for criminal charges as part of his
scheme to secure greater custody rights in Andersen’s minor children.
Notwithstanding Andersen told him this and offered to give him documented
evidence7 of same (pleadings, the text messages by Gimbel, the police reports, the emails, phone records), Popkov cast Andersen’s statements off as “irrelevant”.
However, Popkov cannot simply ignore facts that are presented to him and,
thereinafter, claim the benefit of having probable cause. Rather, he was obligated
to conduct further research as to whether Gimbel was truly emotionally distressed
or, rather, was feigning emotional distress for the improper purpose of harassing
Andersen. Neiman v. Keane, 232 F.3d 577, 581 (7th Cir. 2000)(“If a reasonable
officer should be suspicious that the putative victims’ complaints are not reliable,
then the officer is obliged to conduct a further examination of the complaint.”);
Myvett, 232 F.Supp.3d at 1025 (officer’s state of mind is irrelevant for probable
cause except for the facts that he knows).

Indeed, even if this Court were to

consider the audio tapes over Andersen’s objection, the tapes send a clear message- leave me alone not vice versa. Obviously, Popkov should have known that Andersen
was reacting to something that Gimbel had done. Yet, notwithstanding that, he
could not bother himself to question Gimbel as to the events that led up to the calls.
Finally, the Complaint also clearly alleges that no one from the Glenview
Police Department contacted Andersen relative to Gimbel’s August 2015 complaint.

Indeed, all Popkov had to do was take a few minutes to internally review
Andersen’s three police reports that existed in the Glenview Police Department
records to partially verify Andersen’s statements.
7

20

Rather, they simply collected Gimbel’s evidence and waited in the weeds for another
set of calls. In other words, the Complaint clearly alleges that Andersen believes
that she was set-up by both Gimbel and the Glenview Police Department. In this
regard, Gimbel just needed to push harass Andersen one more time and get a
recorded response and then “Bingo”.. .here come the criminal charges! The conduct
of the officer who took Gimbel’s August 2015 complaint was also the subject of
scrutiny in the underlying criminal trial.
In sum, the Complaint clearly alleges that Popkov had knowledge of facts at
the time of the arrest that he chose to ignore at the time of arrest even though they
undermined the necessary elements of the relevant criminal charges. To the extent
that he wishes to claim that he did not have such knowledge, he is free to present a
contested version of facts to a jury and let them resolve the issues of credibility and
probable cause.
F.

The Seventh Circuit Erred in Affirming Probable Cause When
There Were Question of Fact as to the Reasonableness of Same.
With or Without Considering the Audio Tapes
Here, the Seventh Circuit again glosses over the trial court’s ruling by trying

to undo the damage that the trial court allowed/caused in listening to the contested
audio tapes. The Seventh Circuit concludes that based on the allegations of the
complaint that they could find probable cause simply by virtue of the fact that
Andersen alleged that Gimbel called the police and provided the audio tapes to
Popkov:
Andersen's complaint alleged that Gimbel filed a police report stating
that he was being harassed through voicemail messages, submitted
recordings of them (though the complaint does not specifically describe
21

what they contained), and forwarded a log of his incoming calls.
See Woods v. City of Chi., 234 F.3d 979, 996 (7th Cir. 2000) ("[W]e have
consistently held that an identification or a report from a single,
credible victim or eyewitness can provide the basis for probable
cause."). It also alleged that Andersen called Gimbel's boss (which he
reported to the police) and "several" other people in an angered
attempt to stop what she perceived as Gimbel harassing her, which
would have been reflected on the logs and recordings that Detective
Popkov received. Taken altogether, these alleged facts positioned
Popkov (or. more generally, any reasonable police officer) to
believe that Andersen had engaged in telephone harassment. In
short, Andersen's allegations could not support a claim that Detective
Popkov lacked probable cause to arrest her.
Andersen, 821 F. App'x at 627-628.

Here, the Seventh Circuit makes a

determination of “reasonableness”, i.e. a contested issue of material fact at the
pleading stage and disregards all of the above precedent which makes such a
finding improper. In addition, both lower courts ignored the fact that the complaint
clearly alleged that both Gimbel and Popkov were perjurers; that a criminal court
that threw out their testimony based on the lack of Gimbel/Popkov’s lack of
credibility; that Gimbel tampered with criminal evidence; that Andersen was the
victim not vice versa; that Popkov ignored the harassing text messages that Gimbel
sent Andersen’s son; and that Popkov ignored the fact that Andersen had made
three police complaints and filed a motion for a protective order in the custody
litigation against Gimbel asking that someone (i.e. the police or the court) direct
Gimbel to cease contacting her directly or indirectly. In other words, it was absurd
for the lower courts to find Popkov “reasonable” as a matter or law and/or given that
there were certainly issues of material fact that undermined his claim that he was
“reasonable”. The lower courts effectively let a fake victim and a dirty cop get away

22

with it. It was and is shameful.
G.

The Lower Courts Erred in Dismissing Andersen’s
Constitutional Claims Relative to Her Constitutional Claim for
Familial Relations Against Popkov (Count III) and Conspiracy
against Gimbel (Count IV)
Next, Andersen maintains that the trial court erred in dismissing her claims
against Popkov for the deprivation of her children at the bond court proceedings for
30 days. In making its ruling, the trial court recognized that this conduct could
prompt constitutional claims under due process analysis.

Brokaw, 235 F.3d at

1017; Hernandez v. Foster, 657 F3d 463, 478 (7th Cir. 2011); Wallis v. Spencer, 202
F.3d 1126, 1137 (9* Cir. 2000); Troxel v. Granville, 530 U.S. 57, 74-75 (2000);
Gregory v. City of Evanston, 2006 WL 3718044, *4 (N.D.I11. 2006). However, after
agreeing with Andersen, Judge Tharp nevertheless struck the claim on the basis
that Andersen had not alleged sufficient facts to support it under F.R.Civ.P 9(b).
Specifically, Judge Tharp opines that Andersen could not plead “upon information
and belief’ that Popkov and Gimbel told the State’s Attorney that Andersen was
mentally unwell because this was insufficient for a claim of “fraud” and, thus,
subject to F.R.Civ.P 9(b).8

Judge Tharp relies on United States, ex rel Bogina v.

Medline Indus. Inc., 809 F.3d 365, 370 (9th Cir. 2016), a False Claims Act decision,
and Pirelli Armstrong Tire Corp. Retiree Med. Benefits Tr. V. Walgreen Co., 631 F3d
436, 443 (7th Cir. 2011) for his position that Andersen is required to plead under
Fed.R.Civ.P 9(b).
After the bond hearing, the State’s Attorney backed off of this allegation
given that allegations of mental health were counterintuitive to the mens rea crime
that they were attempting to prosecute her for. This issue was litigated during the
criminal litigation. Judge Edidin ultimately barred all derogatory attacks.
8

23

First, as discussed supra, Section 1983 is only subject to the pleading
obligations of Rule 8(a). Rule 9(b) has been expressly rejected in the context of
Section 1983 claims. See cases cited supra. In light of that, there is no issue with
Andersen pleading “upon information and belief’ Popkov and/or Gimbel (or, in
reality, both) solicited the young State’s Attorney at the bond hearing to seek a
mental health evaluation against Andersen and, further, order Andersen to lose
custody rights during that time period.
Second, the Complaint very clearly alleges that Gimbel has been publicly
attacking Andersen with this allegation for years in an effort to harass her. Indeed,
this Court does not need to take Andersen’s word for it, written documentation
exists to show that even Gimbel has sent e-mails on the subject. Further, this
Court can clearly see that Gimbel is falsely telling the bond court that he had plans
to take the children on a trip to the football game. This is in clear contradiction of
Andersen telling him “no”... or at least until she was conveniently arrested.
Third, Andersen plead “upon information and belief’ only because she was
not in the room where this conversation occurred. However, Andersen can tell this
Court that Popkov also mocked Andersen while in custody with derogatory mental
health comments; both Gimbel and Popkov were present at the bond hearing; and
both Gimbel and Popkov went in the side conference room to confer with the State’s
Attorney. As such, the logical inference from such facts is that they were the sole
source of those opinions. There was no one else there at the courthouse.

24

Fourth, this is not the subject of motion practice in any regard. For example,
let’s say that Gimbel and Popkov were to have filed a motion for summary judgment
denying that they said such comments. Then, this State’s Attorney suffered from
acute memory loss (as the State’s Attorney who was at the police station did in his
deposition testimony as to who told her that Andersen was mentally unwell. Here,
Andersen has told this Court very clearly that there are multiple examples of
Popkov and Gimbel lying under oath, tampering with evidence and acting in a
deceptive fashion. There would nonetheless be a factual dispute for the jury to sort
through. In addition, they are in the best position (as the criminal court did before
throwing out the charges) to weigh the credibility of the witnesses and watch their
mannerisms while they try to spin their yarn.
Fifth, Andersen has already explained in the Complaint that she crossed her
arms in disbelief and annoyance when she heard these comments.

If this Court

were standing in Andersen’s shoes and they heard some young attorney making
absurd mental health comments while contemporaneously asking that you be
charged with felony crimes, you too would think that the scene was a farce. In any
event, why would the comments of a young attorney negate the fact that Popkov
and Gimbel were the source of this information in the first place. This Court has
recognized that the chain of events does not break when a police officer (and
presumably the conspiring complainant) mislead the State’s Attorney.

See by

analogy Jones v. City of Chicago, 856 F.2d 985, 994 (7th Cir. 1988)(recognizing that
an officer is not relieved of liability where a State’s Attorney proceeds to a grand

25

jury based on the deception of the police officer); Brokaw, 235 F.3d at 1014 (“moving
force” behind the deprivation of one’s familial rights are also subject to liability
under Section 1983).
When asked to review the above points, the Seventh Circuit yet again “rubber
stamped” the trial court’s decision without any substantive analysis. Specifically,
they noted:
The district court was right to dismiss the other claims that it did too.
No allegations plausibly linked any statements by Detective
Popkov [**7] to . the bond court's decision to remove Andersen's
children from her care. The state law malicious prosecution claim
failed because "the chain of causation [was] broken by [the]
indictment," and the complaint did not sufficiently allege any post­
arrest actions by Detective Popkov that influenced the prosecutor's
decision to indict. Colbert v. City of Chi., 851 F.3d 649, 655 (7th Cir.
2017) (emphasis omitted).
Andersen, 821 F. App'x at 628.

Not only did the Seventh Circuit wholly disregard

most of the above points, the Seventh Circuit does not explain how on earth they
could have made this ruling at the motion to dismiss stage based strictly on the
allegations of the complaint. Rather, in a cursory fashion, the Seventh Circuit
argues that the trial court was correct in that the Complaint purportedly did not
link Popkov with the statements. First, this is not true. Second, this was easily
curable in that he and Gimbel were in the back room coaching the young and
inexperienced State’s Attorney as to what to say at the bond hearing (even though
her mental health request was counterintuitive to bringing mens rea claims at the
same time.

Third, any purported deficiency in the pleading was curable by

amendment. Fourth, Gimbel has certainly argued that Gimbel and Popkov,

26

together, were the “moving forces” influencing the State’s Attorneys such that
dismissal was inappropriate... particularly at the motion to dismiss stage.
H.

The Lower Courts Erred in Finding That the Grand Jury
Indictment Further Defeated Andersen’s State Malicious
Prosecution Claims Count VIII) and conspiracy against Gimbel
(Count X)
Next, Andersen challenges the dismissal of Andersen’s state malicious

prosecution count.9 In this regard, Judge Tharp reincorporates that his finding of
probable cause defeats this claim. As such, Andersen reincorporates her argument
relative to probable cause herein by reference.
Moreover, Judge Tharp then adds that the fact that there was a grand jury
proceeding conclusively establishes the existence of probable cause. In this regard,
Judge Tharp cites to relies largely on Colbert u. City of Chicago, 851 F.3d 649 (7th
Cir. 2017) to support his decision. However, the Colbert decision was responding to
a motion for summary judgment, not a motion to dismiss. Again, Andersen was not
required to plead all of her evidence at this stage of the litigation; nor was Andersen
given any Rule 56.1 statement to respond to relative to the conduct of Popkov.10
While this may be true in some contexts, this Court has recognized that this

9

Andersen does not appeal the dismissal of the Section 1983 Claim for
Malicious Prosecution. (Count IX).
10
For example, the Complaint does not delve into the fact that Popkov was
ordered to bring in forensically sound, original audio files for Andersen’s expert to
review. Instead, Popkov brought in audio files that were labeled “original”, but
Had Andersen been
were actually another set of forensically unsound copies,
properly presented with a motion for summary judgment, she could have added this
fact in her Statement of Additional Facts as another example of how Popkov acted
dishonestly post-arrest and post-indictment.

27

is not true where the police officer deliberately supplied misleading information
that influenced the decision of the State’s Attorney. First, as discussed above, the
Complaint clearly states that she told Popkov information that put him on notice to
make further inquiry that Gimbel was feigning victimization and emotional distress
and, further, that his real motivation behind the charges was to attempt to use the
charges as custody ploy to gain greater custody rights in Andersen’s minor children.
Popkov was not in simply negligent in the performance in his investigation. Rather,
he purposefully turned a blind charge on facts which would have made an
objectively reasonable person suspect. Thus, when a police officer has knowledge of
evidence that he knows undermines the charges and does not disclose them to the
State’s Attorney, that officer cannot later claim immunity from liability and the
causation chain remains intact. Jones, 856 F.2d at 994. “[A police officer] cannot
hide behind the officials whom they have defrauded.”
Second, Popkov’s conduct was so biased against Andersen that Andersen
sought to speak with the supervisors and the State’s Attorney. Rather than allow
Andersen the ability to speak attorney to attorney with the State’s Attorney,
Popkov obstructed access to the State’s Attorney when he arrived. Had Andersen
been allowed to speak with the State’s Attorney, Popkov might have a good excuse
to claim that the chain of causation was broken. However, by blocking Andersen’s
access to the State’s Attorney at the Glenview Police Department and hiding critical
facts from the State’s Attorney, Popkov purposefully left the State’s Attorney in the
dark.

28

Third, as this Court can see, Popkov not only made the arrest but signed a
verified complaint against Andersen for stalking.

Here, Popkov did so despite the

fact that he had no personal knowledge of anything between Andersen and Gimbel.
Moreover, Popkov did so knowing that the officer involved with the August 2015
complaint did not warn Andersen that Gimbel was soliciting criminal charges
against her and/or that the Glenview Police Department advised Gimbel that they
would press charges if he received more calls.

In effect, the Glenview Police

Department was helping and encouraging Gimbel to entrap Andersen. All Gimbel
had to do was harass Andersen so that she reacted and thereinafter catch her on a
recording.

Further, Popkov signed the complaint even though he, himself,

questioned the validity of such a charge immediately prior to Andersen’s arrest.
Finally, Popkov knew that Andersen had told him extensively about Gimbel’s
harassment of her and Gimbel’s custody agenda; despite that, Popkov purposefully
did not disclose that to the grand jury in his testimony.
Fourth, as noted above, the “emotional distress” of Gimbel was a necessary
element of the charge itself. Conversely, it was not merely exculpatory information
as Judge Tharp asserts. For Popkov to testify that Gimbel suffered “emotional
distress” after harassing Andersen at length is absurd. See discussion supra.
Fifth, while Popkov may be able to claim the benefit of immunity relative to
his grand jury and trial testimony11, his conduct is nevertheless relevant.

For

example, it goes to rebutting the presumption of probable cause. Fabiano u. City of
11

Likewise, Popkov’s creation of a fictitious police report goes to his credibility
and goes to rebutting the presumption of probable cause.
29

Palos Hills, 336 Hl.App.3d 635, 655, 784 N.E.2d 258, 277 (Ill.App. 2003). Further, it
goes to his credibility/impeachment both for purposes of considering his sworn
statements to this Court and, further, in assessing the weight of his trial testimony.
Finally, it again shows that the chain of probable cause is not broken for purposes of
a malicious prosecution claim.

Jones, 856 F.2d at 994; Ewing v. O’Brien, 60

F.Supp.2d 813, 816-817 (N.D.I11. 1999).
Sixth, the e-mails of the Glenview Police Department show that they were
mocking Gimbel prior to the criminal trial. The question is why would Popkov (and
two other officers) nevertheless voluntarily testify at the criminal trial when they
were privately commenting as to the frequency and frivolity of Gimbel’s police
complaints? Likewise, why did they conceal their concerns relative to Gimbel at the
criminal trial?
Seventh, Judge Tharp claims that the audio tapes show that Andersen
threatened Gimbel.

Again, Andersen incorporates by reference her argument

relative to the audio tapes herein. Further, the State’s Attorney and the police both
recognized at trial that Andersen never “threatened” anyone as contemplated by the
telephone harassment statute. Further, the excerpt “You’re dead” when taken in its
proper context was never a death threat; it was a figure of speech. This was also
recognized in the underlying criminal case by both the Glenview Police and the
State’s Attorney.

Yet, despite this fact, Popkov concealed the fact that the

expression “You’re dead” was taken out of context and not, in fact, a death threat.
Likewise, Popkov did not disclose to the grand jury that he did not personally

30

believe that there were sufficient facts to support a stalking charge.12
Finally, notwithstanding whether or not there is a threat or harassment, all
of the elements of the crime must be satisfied before arrest and prosecution. As
discussed above, there were no facts to establish “emotional distress” as defined by
either of the relevant statutes.

See discussion supra. Further, the question of

whether something is a “threat” or “harassment” as defined by these statutes are
contested factual questions for the jury to decide after being presented with all of
the evidence and making credibility assessments.
Here, despite Judge Tharp’s statement, Andersen does simply allege
misconduct relative to the arrest but misconduct both after the arrest and the
indictment. Moreover, under Rule 8(a), Andersen is not required to plead all of her
evidence.

Thus, it was incorrect for Judge Tharp to assume at the Motion to

Dismiss stage that the Complaint was an exhaustive list.
Here, again, the Seventh Circuit made no effort to address the above points.
Rather, they simply concluded: “The state law malicious prosecution claim failed
because "the chain of causation [was] broken by [the] indictment," and the
complaint did not sufficiently allege any post-arrest actions by Detective Popkov
that influenced the prosecutor's decision to indict. Colbert, 851 F.3d at 655

12

Judge Tharp opines that Popkov was not dishonest because he concludes that
the e-mail wherein Popkov made the admission concerned picking up the children.
However, at this point in time, Popkov already had the audio files for some time.
The e-mail demonstrates that Gimbel was attempting to offer Popkov other
“evidence” in addition to the audio files to bolster a stalking charge. Indeed, this
differing view of this e-mails demonstrates that this is a contested factual issue and,
conversely, not something that should be addressed via motion practice.
31

(emphasis omitted)” Andersen, 821 F. App'x at 628.

Here, Andersen has clearly

alleged and argued that Popkov mislead the State’s Attorney in bringing the
charges. Moreover and again, this was not something to be decided at the motion to
dismiss stage and/or with prejudice. Rather, the role of Popkov relative to the
State’s Attorney conduct was a contested question of fact that should not have been
addressed by a Rule 12(b)(6) motion.
II.

The Trial Court Erred in Granting Popkov and Gimbel’s Motion for
Summary Judgment
A.
Standard of Review of the Trial Court’s Dismissal Pursuant to
a Motions for Summary Judgment
This Court is also to review the granting of summary judgment under the de

novo standard. Colbert, 851 F.3d at 653. “Summary judgment is not a substitute for
a trial on the merits, nor is it a vehicle for resolving factual disputes. Therefore, in
considering a motion for summary judgment, we draw all reasonable inferences in
favor of the non-movant. If genuine doubts remain, and a reasonable factfinder
could find for the party opposing the motion, summary judgment is inappropriate.”
Rising-Moon v. Wilson, 2005 U.S. Dist. LEXIS 13955, *22 (S.D.Ind. 2005). “[I]t is
trial by jury that is guaranteed by the Constitution, not trial by affidavit.” Southern
United States Trade Association v. Unidentified Parties, 2012 WL 579439 579439,
*2-3 (E.D.La. 2012).
In addition, the trial court does not make credibility determinations, weigh
evidence or decide which inferences to draw from facts in motions for summary
judgment. Washington v. Haupert, 481 F.3d 543, 550 (7th Cir. 2007). Where a
record contains credibility questions and competing versions of the facts, the matter
32

“should be sorted out by the trier of fact”. Paz v. Wauconda Healthcare, 464 F.3d
659, 665 (7th Cir. 2006); see also Southern United States Trade Association, 2012
WL 579439 at *2-3 (finding that where defendants’ motion for summary judgment
offered a self-serving affidavit and their credibility was at issue summary judgment
should be denied); Fulkerson v. Tompkins State Bank, 2012 WL 4520251, *7
(C.D.I11. 2012)(noting nonmovant’s affidavit is entitled to more weight at the
summary judgment stage).
B.

Defendants’ Credibility is in Question in these Proceedings

At this point in time, Andersen has provided multiple examples of Popkov
and Gimbel lying under oath, tampering with evidence and otherwise acting in a
dishonest fashion.

Yet notwithstanding same, Judge Tharp ignored much of

Andersen’s affidavit while accepted the self-serving testimony of Popkov and
Gimbel? By doing so, Judge Tharp indirectly placed himself in the position of the
jury and, in doing so, improperly made credibility decisions and weighed evidence in
his summary judgment opinion.

This was improper....particularly given that

Popkov and Gimbel were known perjurers already from the criminal case. Did the
federal court seriously think that Popkov and Gimbel would not perjure themselves
again? See cases cited supra.
C.

Judge Tharp Does Not Disregard The Audio Tapes

In his opinion relative to the motion for summary judgment, Judge Tharp
states that he does not rely on the audio tapes. This is not correct. As addressed
above, Judge Tharp considered the audio tapes at the motion relative to the

33

question of probable cause.

In this summary judgment opinion, Judge Tharp

reincorporated his Motion to Dismiss opinion by reference and reaffirms his finding
relative to probable cause. So why is it that Judge Tharp still does not address
Jerry Saperstein’s authenticity challenge relative to the audio tapes either relative
to the issue of probable cause and his reliance on improper evidence? He does not
explain.
D.

Judge Tharp’s Ignores His Prior Conclusions Relative to the
IIEP Claim Against Gimbel (Count II)
In his opinion relative to the motion to dismiss, Judge Tharp recognized

Andersen as having plead a claim for IIED. In doing so, Judge Tharp recognized
that the variety of allegations of harassment showed a pattern of harassment.
Namely, Judge Tharp agreed with Andersen that making defamatory comments
about Andersen’s mental health to third parties, his efforts to have Andersen
arrested and prosecuted, his requests to the State’s Attorney to have Andersen’s
mental health evaluated, his refusal to drop the frivolous charges, his efforts to
revoke the bond were all “extreme and outrageous” for purposes of an IIED claim.
When Judge Tharp issued his original opinion, his finding relative to probable cause
had not bearing relative to this claim. Conversely, Judge Tharp does not opine that
the IIED claims are somehow contingent upon only the issue of Andersen’s 24 hour
detainment.
So why is it that now, “as a matter of law”, Judge Tharp has changed his view
of the allegations? Nothing has changed between his ruling relative to the Motion
to Dismiss and the Motion for Summary Judgment other than an additional

34

discussion relative to the 24 hour detainment issue. Indeed, as noted by Andersen,
Gimbel largely avoids the TIED claim in his motion for summary judgment.

Here

the evidence shows that Gimbel has harassed Andersen with the police for years,
smeared Andersen’s good name, had her children taken away, deprived her of her
trip to Disney, subjected her to years of litigation in domestic relations court,
financially destroyed her, pursued the charges even after Judge Vega recognized the
charges as a ploy for sole custody, deleted exculpatory evidence and tampered with
the audio files. There is bountiful evidence for a jury to consider relative to an IIED
claim.

Feltmeier v. Feltmeier, 207 I11.2d 263, 273, 798 N.E.2d 75, 82 (Ill.

2003)(noting that where there is an abuse of power, IIED claim is particularly
appropriate in claim between ex-spouses); see also Jiang v. Levette, 2015 WL
9480478, *4-5 (E.D. Mo. 2015)(finding charging of false crimes without reasonable
belief was sufficient to allege outrageousness for IIED claim); Parish v. City of
Elkhart, 614 F.3d 677, 683 *7th Cir. 2010 (Ind.)Xnoting that IIED claim was proper
where plaintiff claimed false arrest, evidence tampering and destruction, and
perjured statements made during prosecution of the plaintiff); Beaman v. Souk,
2011 WL 832506, *13-14 (C.D. Ill. 2011)(noting that malicious prosecution can form
the basis of a IIED claim).
Furthermore, probable cause has nothing to do with the IIED claims relative
to Gimbel. Likewise, there is no legal basis for this opinion. Here, even assuming
arguendo that Popkov had acted good faith relative to Gimbel’s complaints, he
might be excused from liability under a finding that he had probable cause.

35

However, that has no bearing on whether Gimbel also had a good faith basis to
bring the complaint in the first place. Again, Andersen has alleged and provided
verified statements to demonstrate that Gimbel was a false victim who set
Andersen up for the criminal charges by refusing to cease contacting her in an effort
to create a reaction. Even Judge Vega, who had been on Andersen’s case for many
years before the charges, recognized Gimbel as a fake victim who “set up” Andersen.
Indeed, how can Gimbel claim that he is being harassed when the reaction is in
response to his harassment? Likewise, Gimbel demonstrated that it was a custody
ploy himself when he immediately filed his petition for greater custody rights.
Indeed, even if Judge Tharp were correct, the question of Gimbel’s “emotional
distress” is a necessary element of the harassment charge. Obviously the issue of
Gimbel’s purported “emotional distress” is a contested issue of fact.
From Andersen’s perspective, the holding of the Seventh Circuit was specious
and offensive relative to the IIED count:
Last was Andersen's intentional infliction of emotional distress claim
against Gimbel. HN9 The bar is high—the conduct must be "truly
extreme and outrageous." Feltmeier v. Feltmeier, 207 Ill. 2d 263, 798
N.E.2d 75, 80, 278 Ill. Dec. 228 (Ill. 2003). The district court reasoned
that although pursuing baseless criminal charges against someone
could meet that demanding standard, Gimbel's allegations were not
unfounded. Indeed, Illinois courts have previously found the act of
filing criminal charges to fall below the required level of
outrageousness. See, e.g., Schiller v. Mitchell, 357 Ill. App. 3d 435, 828
N.E.2d 323, 335, 293 Ill. Dec. 353 (Ill. App. Ct. 2005); Adams v.
Sussman & Hertzberg, Ltd., 292 Ill. App. 3d 30, 684 N.E.2d 935, 943,
225 Ill. Dec. 944 (Ill. App. Ct. 1997). We cannot say that the district
court committed any error in concluding that no reasonable jury could
find Gimbel's decision to lodge a report with the police after feeling
threatened to be "intolerable in a civilized community." Feltmeier, 798
N.E.2d at 83.
36

Andersen, 821 F. App'x at 629. Again, how is this anywhere appropriate a motion
for summary judgment and/or an uncontested question of material fact? How is it
that the Seventh Circuit ignored the questions of credibility... including the fact
that the criminal case was tossed out based on Gimbel’s lack of credibility (i.e. that
he was a blatant perjurer and false witness that Andersen did not even need to put
on a defense)? Why did the lower courts ignore that this was Gimbel’s second stunt
to play the fake victim and press criminal charges? Why did the lower court ignore
the fact that Gimbel’s conduct of harassment was prolonged/ongoing and over years
such that Andersen (not Gimbel) blocked Gimbel on every possible electronic devise,
filed three criminal complaints and filed a motion for a protective order? Why did
the lower courts ignore the fact that Gimbel, after receiving a very favorable divorce
decree to his financial benefit, could not suppress his vengeance against Andersen
in divorcing him... as exhibited by the fact that he dragged Andersen through
never-ending divorce proceedings post judgment because he is absolutely crazy and
vindictive.

In sum, the lower courts’ ruling is absurd; the reality is that they

considered themselves too good for what they perceived as a divorce case .. in
complete disregard and indifference to Andersen’s civil liberties.
E.
The Timing of the Arrest Relative to the Football Game
Judge Tharp also does a “180” on his response to the timing of Andersen’s
arrest relative to the football game.

First, Judge Tharp states that Popkov’s

waiting until a day before the trip “plausibly supports Andersen’s allegation that
Popkov was cooperating with Gimbel’s alleged plan”.

37

Now, based on the same

evidence except the addition of a self-serving affidavit by Popkov, Judge Tharp
reaches the opposite conclusion. Here the e-mail relative to the football game, in
conjunction with the fact that Andersen was arrested the very next day and on the
eve of the game, creates a genuine issue of material fact as to a conspiracy.
Indeed, even if not independently actionable in and of itself, it undermines the
reasonableness and objectivity and credibility of Popkov relative to the arrest itself.
In any event, this is a question of disputed fact.
F.
Popkov’s Change in Justification
Here, Judge Tharp ignores the fact that Popkov changed his justification for
holding Andersen overnight by stating that it is irrelevant. However, it is relevant
given that his change in justification shows, yet again, that Popkov has issues of
credibility and, as such, nothing should be adjudicated without the jury evaluating
the weight of the totality of the evidence relative to the issues of probable cause and
qualified immunity relative to Andersen’s pre-indictment arrest and detention and
their purported excuses.
Moreover, it is a violation of the Fourth Amendment to delay an arrestee’s
detention if the delay is “for the purpose of gathering additional evidence to justify
the arrest, a delay motivated by ill will against the arrested individual, or delay for
delay's sake.” County of Riverside v. McLaughlin, 500 U.S. 44, 57 (1991). Because
the standard for judging an arrestee’s claim of unduly extended detention “is one of
reasonableness under the circumstances, summary judgment is proper only if there
is no room for a difference of opinion.” Bullock v. Dioguardi, 1990 WL 19527, *3
(N.D.I11. 1990). Here, Andersen has offered sworn testimony that she was delayed
38

for improper motives.
In its cursory response to this point, the Seventh Circuit notes:
But the Fourth Amendment's reasonableness analysis is objective.
See Whren v. United States, 517 U.S. 806, 814, 116 S. Ct. 1769, 135 L.
Ed. 2d 89 (1996); United States v. Bullock, 632 F.3d 1004, 1012 (7th
Cir. 2011). Properly placing credibility aside, we agree with the district
court that Andersen's evidence did not rebut the presumption that her
detention [**9] was reasonable.
Andersen, 821 F. App'x at 628.

First of all, how is it that the Seventh Circuit

“properly placed credibility aside” on a summary judgment motion? Where there
are issues of credibility, summary judgment is not appropriate. See cases cited
supra. Second, Popkov was acknowledged as a perjurer in the criminal court trial.
Are the federal courts seriously saying that it will blindly accept the self-serving
affidavit of a perjuring cop in determining “objective” reasonableness? What about
Andersen’s counter-affidavit saying that Popkov was not objectively reasonable? Do
the federal courts now just ignore counter-affidavits at a motion for summary
judgment? Do the federal courts disregard the fact that there are contested issues of
material fact relative to the “objective” reasonableness of Popkov?

Here, the

complaint alleges that (a) Gimbel has cronyism ties to the police department: (b) the
police did nothing relative to Andersen’s 3 police reports against Gimbel prior to the
incident (which Popkov ignored); (c) Popkov refused to consider Gimbel’s harassing
text messages to Andersen’s minor son; and (d) Popkov even pre-planned arresting
and detaining Andersen even before arresting her...evidence by the fact that he had
Gimbel arrange for him to pick up Andersen’s minor children from school; and (e)(
Popkov even pre-planned arresting and detaining Andersen to further Gimbel’s
39

plan to take the children (over Andersen’s objection) to a football game... as
evidenced by the timing of the arrest. In other words, there is not only evidence
that the arrest was not “objectively” reasonable... the evidence clearly shows
railroading by a dirty cop.
CONCLUSION
In sum, the lower courts disregarded proper rules of professional conduct to
apparently clear its docket for more significant matters. Andersen was unaware
that her civil liberties would be so cavalierly treated in the federal court system.
Had she known same, she would have brought her claims in Illinois court... where
surely they would have survived and gone to trial. Andersen asks this Court to
undo the damage caused by the lower courts relative to an arrestee’s/Andersen’s
civil liberties in the context of false arrest claims.

This was the most horrific

experience Andersen has ever witnessed and experienced... a story of unethical
lawyers, a malicious ex-husband, a dirty cop, and cavalier federal judges.
For the foregoing reasons, the judgment of the lower courts should be
reversed and remanded for further proceedings.
Respectfully submitted:
Barbara Andersen

Barbara Andersen
1007 Longmeadow Lane
Western Springs, IL 60558
708-805-1123

40

